No. 20-853
In the

Supreme Court of the United States
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR, UNITED STATES PATENT
AND TRADEMARK OFFICE,
Petitioner,
v.
FALL LINE PATENTS, LLC, et al.,
Respondents.
(For Continuation of Caption See Inside Cover)
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

RESPONSE OF FALL LINE PATENTS, LLC AND
SNYDERS HEART VALVE LLC IN SUPPORT OF
THE PETITION FOR WRIT OF CERTIORARI
Matthew J. A ntonelli
Counsel of Record
Zachariah S. Harrington
Larry D. Thompson, Jr.
A ntonelli, Harrington
Thompson LLP
4306 Yoakum Blvd., Suite 450
Houston, TX 77006
(713) 581-3000
matt@ahtlawfirm.com
Attorneys for Respondents Fall Line Patents LLC
and Snyder’s Heart Valve LLC
302857

A
(800) 274-3321 • (800) 359-6859

ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
BOTTOMLINE TECHNOLOGIES (DE) INC.,
Respondent.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
JAMES GELSIN MARX,
Respondent.
UNITED STATES OF AMERICA,
Petitioner,
v.
SNYDERS HEART VALVE LLC, et al.,
Respondents.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
C.A. CASYSO GMBH, et al.,
Respondents.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
UNILOC 2017 LLC, et al.,
Respondents.

i
QUESTIONS PRESENTED
1. Respondent Fall Line Patents, LLC agrees with
petitioner that the Court’s decision in Arthrex will govern
the Fall Line case. Should the petition in the Fall Line
case be held and then disposed of as appropriate following
the issuance of this Court’s judgment in Arthrex?
2. Respondent Snyders Heart Valve LLC has waived
its Appointments Clause challenge. That was the only
issue raised on appeal that the Federal Circuit reached.
Should this Court grant the petition for the Snyders case,
vacate the Federal Circuit’s judgment, and remand to the
Federal Circuit so that it can reach the remaining issues
raised on appeal?

ii
CORPORATE DISCLOSURE STATEMENT
Neither respondent Fall Line Patents, LLC nor
respondent Snyders Heart Valve LLC has a parent
corporation. No publicly held corporation owns 10% or
more of either Fall Line’s or Snyders’s stock.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

iv
TABLE OF CITED AUTHORITIES
Page
CASES
Arthrex, Inc. v. Smith & Nephew,
941 F.3d 1320 (Fed. Cir. 2019), cert. granted,
Nos. 19-1434, 19-1452, & 19-1458 (Oct. 13, 2020) . . 2, 3
CONSTITUTION, STATUTES & REGULATIONS
U.S. Const. Art. II, § 2, Cl. 2
(Appointments Clause) . . . . . . . . . . . . . . . . . . . . . . . 2, 3
OTHER
Gen. Order in Cases Remanded Under Arthrex,
Inc., 941 F.3d 1320 (Fed. Cir. 2019)
(PTAB May 1, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
INTRODUCTION
Respondent Fall Line Patents, LLC agrees with
petitioner that the Court’s decision in United States v.
Arthrex, Inc., Case No. 19-1434, and the consolidated
cases (Nos. 19-1452 and 19-1458), may warrant granting,
vacating, and remanding to the Federal Circuit. Fall Line
thus agrees that, in the Fall Line case, the Court should
hold the petition for its decision in Arthrex, and then
dispose of it accordingly.
Respondent Snyders Heart Valve LLC also agrees
with petitioner that the Court’s decision in Arthrex may
warrant granting, vacating, and remanding. But in the
Snyders case, granting, vacating, and remanding is
additionally warranted no matter how (or when) the Court
decides Arthrex. Snyders has waived its Appointments
Clause challenge—not only eliminating the basis for the
Federal Circuit’s judgment below, but also providing
petitioner with the exact relief it seeks from the Court.
Accordingly, for the Snyders case, the Court should grant,
vacate, and remand so that the Federal Circuit can reach
Snyders’ merits issues.
STATEMENT
In IPR2018-00043, Unified Patents, LLC filed an
inter partes review petition with the Patent Trial and
Appeal Board challenging the patentability of several
claims of U.S. Patent No. 9,454,748. The Board declared
those claims unpatentable in its final written decision.
Unified Patents Inc. v. Fall Line Patents, LLC, IPR201800043, Paper 34 (PTAB, April 4, 2019).

2
In IPR2018-00107, St. Jude Medical, LLC filed an
inter partes review petition with the Board challenging
the patentability of several claims of U.S. Patent No.
6,821,297. The Board declared those claims unpatentable
in its final written decision. St. Jude Med., LLC v. Snyders
Heart Valve LLC, IPR2018-00107, Paper No. 55 (PTAB,
May 2, 2019).
Respondents Fall Line and Snyders each appealed
to the Federal Circuit on the ground that the Board was
not properly appointed under the Appointments Clause.
In view of its prior decision in Arthrex, Inc. v. Smith &
Nephew, 941 F.3d 1320, 1338 (Fed. Cir. 2019), the Federal
Circuit vacated the Board’s final written decisions
and remanded for further proceedings before newly
constituted panels of the Board. Fall Line Patents, LLC
v. Unified Patents, LLC, No. 2019-1956, 818 Fed. Appx.
1014 (Fed. Cir. July 28, 2020); Snyders Heart Valve LLC
v. St. Jude Med., LLC, No. 2019-2111, 825 Fed. Appx. 888
(Fed. Cir. Sept. 9, 2020). The Board stayed the remand
proceedings in view of the Arthrex cases pending before
this Court. See Gen. Order in Cases Remanded Under
Arthrex, Inc., 941 F.3d 1320 (Fed. Cir. 2019) (PTAB May
1, 2020).
Snyders also raised several merits issues on appeal
that were not reached by the Federal Circuit. After the
Federal Circuit’s decision, Snyders expressly waived its
Appointments Clause challenge, leaving only those merits
issues. St. Jude Med., LLC v. Snyders Heart Valve LLC,
IPR2018-00107, Paper No. 57. For the avoidance of doubt,
Snyders hereby again expressly waives its Appointments
Clause challenge.

3
On December 22, 2020, the government filed this
petition for certiorari, which asks the Court to hold its
petition pending disposition of United States v. Arthrex,
Inc., No. 19-1434, and the consolidated cases (Nos. 19-1452
and 19-1458), and then to dispose of it as appropriate in
light of the Court’s Arthrex ruling. The Court docketed
the petition on December 28, 2020.
The Court called for a response to the petition on
February 22, 2021. The Court’s call appears to have been
addressed only to counsel for respondents Fall Line and
Snyders. This response is submitted on behalf of only
them. Counsel for Fall Line and Snyders has forwarded
the Court’s call for response to counsel for the remaining
respondents listed on the proof of service filed with the
petition.
ARGUMENT
Fall Line adopts petitioner’s argument section in
full. See Pet. 9-10. For example, Fall Line agrees with
petitioner that, if the Court reverses in Arthrex, then the
Court should vacate the judgment of the Federal Circuit
and remand for further proceedings. The petition in the
Fall Line case should thus be held pending the issuance
of this Court’s decision in Arthrex, and then should be
disposed of as appropriate in light of that decision.
Snyders also agrees with petitioner that, if the
Court reverses in Arthrex, then granting, vacating, and
remanding would be warranted. But there is an additional
reason why the Court should grant, vacate, and remand
in the Snyders case: Snyders has voluntarily waived its
Appointments Clause challenge. That waiver eliminates

4
the only basis for the judgment below. It also provides
petitioner with the exact relief that it seeks from the
Court. So no matter how (or when) the Court decides
Arthrex, the Court should grant the petition, vacate the
judgment of the Federal Circuit, and remand so that the
Federal Circuit can reach Snyders’s merits issues.
CONCLUSION
For the Fall Line case, the Court should hold the
petition pending its decision in Arthrex, and then dispose
of it accordingly. For the Snyders case, the Court should
grant the petition, vacate the judgment of the Federal
Circuit, and remand for further proceedings.
Respectfully submitted,
Matthew J. A ntonelli
Counsel of Record
Zachariah S. Harrington
Larry D. Thompson, Jr.
A ntonelli, Harrington
Thompson LLP
4306 Yoakum Blvd., Suite 450
Houston, TX 77006
(713) 581-3000
matt@ahtlawfirm.com
Attorneys for Respondents
Fall Line Patents LLC and
Snyder’s Heart Valve LLC
MARCH 5, 2021

